IN THE

SUPREME COURT OF THE UNITED STATES

 

ROBERTO TORNER - PETITIONER

vs.

UNITED STATES OF AMERICA - RESPONDENT

 

PROOF OF SERVICE

I, Gino Bartolai, hereby certifies that on this date I have served the enclosed
MOTION FOR LEAVE TO PROCEED JN FORMA PAUPERIS and PETITION
FOR A WRIT OF CERTIORARI and APPENDIX TO PETITION FOR WRIT OF
CERTIORARI on each party to the above proceeding, or that party’s counsel, and
on every other person required to be served, by depositing an envelope containing
the above documents in the United States mail properly addressed to each of them
and with first-class postage prepaid.

The names and addresses of those served are as follows:
=A

Date: 2 ~ 5 ~

Roberto Torner

Luzerne County Correctional Facilty
99 Water Street

Wilkes-Barre, PA 18702

Phillip Caraballo, Esquire
Assistant United States Attorney
(570) 348-2800

Federal Building, Suite 311
Scranton, PA 18501

Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave. N.W.
Washington DC 20530-0001

Quin M. Sorenson

Attorney for Liza Robles
Assistant Federal Public Defender
Middle District of Pennsylvania
(717) 782-2237

100 Chestnut Street, Suite 306
Harrisburg, PA 17101

 

Counsel of Record for Roberto Torner
238 William Street

Pittston, Pennsylvania 18640

email: Bartolai@ptd.net

(570) 654-3572
